   ASSESSMENT REPORT
         12-23




Federal PKI Compliance Report
     September 18, 2012
Date
September 18, 2012
To
Chief Information Officer
From
Inspector General
Subject
Assessment Report - Federal PKI Compliance Report
Report Number 12-23

Enclosed please find the subject final report. The Office of the Inspector General
administered a contract with Ernst & Young LLP (E&Y) to provide a compliance
report of GPO’s Public Key Infrastructure (PKI) for July 1, 2011 through June 30,
2012. E&Y conducted their work in accordance with attestation standards
established by the American Institute of Certified Public Accountants.

E&Y concluded that GPO’s assertion is fairly stated in all material respects. E&Y also
issued a Letter of Supplementary Information, concluding that the GPO Principal
Certification Authority Certificate Practices Statement conformed in all material
respects to the GPO-Certificate Authority and Federal PKI common policies. E&Y is
responsible for the attached report and the opinion expressed therein.

We appreciate the courtesies extended to E&Y and to our audit staff. If you have any
questions or comments about this report, please do not hesitate to contact me at
(202) 512-0039.




Michael A. Raponi
Inspector General

Enclosure

cc:
Acting Public Printer
Assistant Public Printer, Operations
General Counsel
US Government
Printing Office
Report of Independent Accountants

Federal PKI Compliance Report

For the Period July 1, 2011 to June 30, 2012
                                              Table of Contents

Report of Independent Accountants ............................................................................. 1

Management Assertion ................................................................................................ 2

Letter of Supplementary Information ........................................................................... 5

Summary of Matters Relating to Project Personnel ....................................................... 7




1208-1385105
                                                                    Ernst & Young LLP
                                                                    Westpark Corporate Center
                                                                    8484 Westpark Drive
                                                                    McLean, VA 22102
                                                                    Tel: + 1 703 747 1000
                                                                    Fax: +1 703 747 0100
                                                                    www.ey.com




                          Report of Independent Accountants

We have examined the assertion, dated August 20, 2012, by the management of the United
States Government Printing Office (“GPO”), that GPO’s Certification Authority (GPO-CA)
complied with certain requirements of its Certificate Policy (CP), Version 1.3.1 dated
August 17, 2009 and its Certificate Practices Statement (CPS) Version 1.7.1 dated June 3,
2011, for the period July 1, 2011 to June 30, 2012, as well as the requirements of the
Federal PKI Authority and all current cross-certification Memorandum of Agreements (MOAs)
executed by the GPO-CA with other entities.

Management of the GPO is responsible for its compliance with those requirements. Our
responsibility is to express an opinion on management’s assertion about the GPO’s
compliance based on our examination.

Our examination was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants and accordingly, included examining, on a
test basis, evidence about GPO-CA’s compliance with those requirements and performing
such other procedures as we considered necessary in the circumstances. We believe that our
examination provides a reasonable basis for our opinion. Our examination does not provide a
legal determination on GPO-CA’s compliance with specific requirements.

In our opinion, for the period from July 1, 2011 through June 30, 2012, GPO management’s
assertion, as set forth in the first paragraph, is fairly stated, in all material respects.

This report is intended solely for the information and use of the GPO and the U.S. Federal PKI
Policy Authority and is not intended to be and should not be used by anyone other than those
specified parties.



ey                             

August 20, 2012 




                                                                                                                    1
                                                                    A member firm of Ernst & Young Global Limited
2
3
4
                                                                   Ernst & Young LLP
                                                                   Westpark Corporate Center
                                                                   8484 Westpark Drive
                                                                   McLean, VA 22102
                                                                   Tel: + 1 703 747 1000
                                                                   Fax: +1 703 747 0100
                                                                   www.ey.com




                                                                   August 20, 2012


                        Letter of Supplementary Information

To the Inspector General of the United States Government Printing Office and the
Management of the United States Government Printing Office Certification Authority
(GPO CA):

This letter provides supplementary information to the examination performed by
Ernst & Young LLP of the assertion by the management of the GPO-CA regarding the
certification authority services it provides at http://www.gpo.gov/projects/pki.htm.

Management’s assertions were based on the American Institute of Certified Public
Accountants (AICPA)/Canadian Institute of Chartered Accountants WebTrust for Certification
Authorities criteria. GPO-CA’s management was responsible for its assertion. Our
responsibility was to express an opinion on management’s assertion based on our
examination.

Our examination was conducted in accordance with attestation standards established by
the AICPA and, accordingly, included examining, on a test basis, evidence about GPO’s
compliance with those requirements and performing such other procedures as we considered
necessary in the circumstances. We believe that our examination provides a reasonable basis
for our opinion. Our examination does not provide a legal determination on GPO-CA’s
compliance with specified requirements.

The audit period for this examination was from July 1, 2011 through June 30, 2012. Our
examination was performed between March 26, 2012 and July 6, 2012.

We examined the Certificate Policy (CP) for the GPO-CA version 1.3.1, dated August 17,
2009, and the Certification Practices Statements (CPS) for the GPO Principal Certification
Authority (GPO-PCA) version 1.7.1, dated June 3, 2011. Multiple Root CAs were not in
operation at GPO-CA.

Our examination included, through our testing of management’s assertion, the evaluation of
GPO-CA’s operations for conformance to the requirements of its CPS and the evaluation of
GPO-CA’s operations for conformance to the requirements of all current cross-certification
Memorandum of Agreements (MOAs) executed by the GPO-CA with other entities. In our
Report of Independent Accountants dated August 20, 2012, we reported that
management’s assertion was fairly stated in all material respects.




                                                                                                                   5
                                                                   A member firm of Ernst & Young Global Limited
 
 
 
 
 
 
We have compared the CPS for the GPO-PCA version 1.7.1, dated June 3, 2011, for
conformance to the CP for the GPO-CA version 1.3.1, dated August 17, 2009. We found, in
all material respects, that the GPO-PCA CPS is in conformance with GPO-CA CP.

We have compared the CPS for the GPO-PCA version 1.7.1, dated June 3, 2011 for
conformance to the FPKI Common Policy. For this analysis we utilized the Framework
Certification Practice Statement Evaluation Mapping Matrix, Version 2.8 (September 22,
2010). We found, in all material respects, that the GPO-PCA CPS is in conformance with the
requirements of the FPKI Common Policy.

We are independent of the GPO for the professional engagement period as required by the
AICPA Professional Standards.




ey                            




                                                                                                                  6
                                                                  A member firm of Ernst & Young Global Limited
                                                                    Ernst & Young LLP
                                                                    Westpark Corporate Center
                                                                    8484 Westpark Drive
                                                                    McLean, VA 22102
                                                                    Tel: + 1 703 747 1000
                                                                    Fax: +1 703 747 0100
                                                                    www.ey.com




                                                                   August 20, 2012


                  Summary of matters related to project personnel
                        provided by Ernst & Young LLP

To the Inspector General of the United States Government Printing Office and the
Management of the United States Government Printing Office Certification Authority
(GPO-CA):

The GPO Office of Inspector General (OIG) has asked Ernst & Young LLP (EY or we) to provide
certain information to assist in its efforts to provide the Federal Public Key Infrastructure
Policy Authority (FPKIPA) with information about the individuals who performed work as part
of the WebTrust for Certification Authority (WTCA) examination services; these services are
performed in accordance with relevant American Institute of Certified Public Accountants
(AICPA) standards. The FPKIPA sets policy governing operation of the U.S. Federal PKI
Infrastructure, composed of: the Federal Bridge Certification Authority (FBCA); the Federal
Common Policy Framework Certification Authority (CPFCA); the Citizen and Commerce Class
Common Certification Authority (C4CA) and the E-Governance Certification Authority. EY
makes no representation regarding the sufficiency of this information for the purposes for
which this information was requested. That responsibility rests solely with the FPKIPA.

Educational level and professional experience

Client serving personnel (Professionals) EY has provided to the Agency have received a degree
from an accredited college or university (or its equivalent if the individual was educated
outside of the United States). Certain individuals may also have advanced degrees. The
majority of Professionals provided to the Agency are part of EY’s Advisory Services (AS)
service line. Recruiting efforts for the AS practice focuses on candidates with information
technology, accounting, finance and other business-related degrees. Hiring activities and
types of Professionals hired into each EY service line, including Assurance and Tax, are
generally the same as similar service lines and personnel of Deloitte & Touche,
PricewaterhouseCoopers and KPMG (who along with EY, are the Big Four).

The experience levels of Professionals provided will vary based upon various factors including
age and length of time the individual has worked since receiving their degree. The amount of
professional experience of Professionals may not solely be related to a person’s employment
period with EY, as EY normally hires a combination of experienced Professionals and
Professionals who recently graduated from a college or university. In most cases, the
experience level within a rank classification of EY Professionals is generally the same as the
other Big Four.




                                                                                                                    7
                                                                    A member firm of Ernst & Young Global Limited
 
 
 
 
 
 
Methodologies, policies and procedures

EY Professionals carrying out WTCA examinations are required to comply with policies and
procedures within the EY Advisory Global Practice Manual and related methodologies. In those
cases where we do not perform work directly under the supervision and responsibility of
Agency personnel as part of an engagement to provide loan staff, and we provide
management with our findings and recommendations in those areas where we observe
internal controls that, in our view, could be improved, the Advisory Global Practice Manual
requires the work and any reports or deliverables to be in accordance with the Statement on
Standards for Consulting Services (CS100) of the AICPA. The initial adoption of, and any
subsequent changes in, policies and procedures have been reviewed and approved by EY’s
Professional Practice group.

Professional certification and continuing education

EY encourages its Professionals to obtain a professional certification. In certain service lines,
obtaining a professional certification is a requirement for promotion. Individuals in AS are
encouraged to obtain a professional certification, but it is not a requirement of employment or
advancement. AS’ more experienced Professionals (which we refer to as managers, senior
managers, executive directors, principals or partners) usually have a professional certification
and some may have more than one certification. In the AS service line, the most common
certifications are Certified Public Accountant (CPA) (or its equivalent in other countries),
Certified Internal Auditor (CIA) as recognized by the Institute of Internal Auditors, Certified
Information Systems Auditor (CISA) as recognized by the Information Systems Audit and
Control Association, or Certified Management Accountant (CMA) as recognized by the
Institute of Management Accountants.

The continuing professional education requirements of the SEC (Securities and Exchange
Commission) Practice Section of the AICPA Division for CPA firms are the foundation of EY’s
professional development policy. The policy applies to all professionals and Government
Accountability Office (GAO) Guidance, as confirmed in consultation with GAO personnel,
suggests that staff and those individuals not managing an engagement subject to Government
Auditing Standards (GAS) may generally satisfy the Government Auditing Standards (Yellow
Book) 24 hour CPE requirement through completion of the firm’s core training because
significant portions of core training content involve auditing under AICPA standards and AICPA
standards are incorporated into GAS. As a subset of the 24 hour GAS requirement, our firm
has a governmental audit continuing education policy that applies to individuals acting as
partner in charge, the independent reviewer, and each individual managing a governmental
audit or attestation engagement. An individual’s professional development principally occurs
through formal learning and on-the-job training. Participation in formal education programs
(including self-study programs and meetings organized at least in part for educational
purposes) is intended to supplement on-the-job training and other learning activities.




                                                                                                                     8
                                                                     A member firm of Ernst & Young Global Limited
 
 
 
 
 
 
Participation in professional development programs is measured in units of continuing
professional education (CPE) credit hours earned in our educational year. EY’s educational
year is July 1 through June 30. The EY policy for compliance is as follows:

– Commencing with the first full educational year of employment, each professional must
  obtain at least 20 CPE credit hours each year and at least 120 CPE credit hours during the
  most recent three-year period.

– Professionals who were not employed during the entire most recent educational year are
  not required to earn continuing professional education credits in that year.

– Professionals who were employed during the entire most recent educational year, but not
  during the entire most recent two educational years, are required to have participated in at
  least 20 hours of qualifying continuing professional education during the most recent
  educational year.

– Professionals who were employed during the entire most recent two educational years, but
  not during the entire most recent three educational years, are required to have participated
  in at least 20 hours of qualifying continuing professional education during each of the two
  most recent educational years.

Professionals who hold a professional designation or certification other than the CPA
certification (e.g., CIA, attorney at law, CISA, CMA) may be subject to continuing education
requirements as part of that designation or certification. Completion of courses to meet these
requirements may be used to meet the firm’s CPE requirements as long as the courses also
meet the requirements of the AICPA’s SEC Practice Section.

Experience Auditing PKI Systems

The EY executive team assigned to the GPO project has experience in performing audits and
implementation of PKI systems and IT security. In addition, certain team members also have
participated in a number of other commercial PKI and WebTrust for CA examinations both as a
team member and as a quality reviewer. We have incorporated consultations with other EY
staff who represent the firm on the AICPA WebTrust Task Force. EY’s client roster for PKI
projects for governmental agencies other than the GPO includes other US federal agencies as
well as foreign governmental monetary organizations.

We are available if you need any additional information or would like to further discuss this
memorandum.




ey                              




                                                                                                                     9
                                                                     A member firm of Ernst & Young Global Limited
   
   
   
   
   
   

Summary information for EY executives assigned to the engagement
                                                                          In compliance with
                                                                Years of     EY CPE policy
Name                           Rank       Certifications       experience      (Yes/No)
                                          CA (Switzerland),
Werner Lippuner         Principal                                 23             Yes
                                          CISA, CISM
James Merrill           Executive Director CPA, CISA              30             Yes
                                          CISSP, CISA, CISM,
Bruce Hamilton          Senior Manager                            31             Yes
                                          CPA
Timothy Iijima, Ph.D.   Senior Manager    PMP                     15             Yes
Staci Angel             Manager           CISA                     8             Yes
   




                                                                                        10
